APPENDIX TO THIS AMICUS CURIAE BRIEF,
to wit:
Pro se argument of Maret Tsarnaeva as amicus
curiae before the United States District Court
for Massachusetts in behalf of her nephew
Dzhokhar Tsarnaev on May 15, 2015,
including color photo exhibits marked and
offered as Tsarnaeva exhibits 1, 2, 3 and 4:

App. 1
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
United States of America,
Plaintiff
vs.

ARGUMENT OF
AMICUS CURIAE
No. 13-CR-10200-GAO

Dzhokhar Tsarnaev,
Defendant
MAY IT PLEASE THE COURT:
1. Federal jurisdiction: The constitutional
authority of the United States cannot be extended to
the prosecution of Dzhokhar Tsarnaev in light of the
opinion of the court in United States v. Lopez, 514 U. S.
549 (1995), and views of Alexander Hamilton in The
Federalist, Ns. 17, 22, and 34 [Clinton Rossiter (ed.),
Mentor edition by New American Library, New York,
1961, pp. 118, 143-144, and 209]. Congress has broad
power to regulate commerce, including trade and the
incidents of trade, but domestic crimes and use of
weapons are generally reserved to the States. If there
is sufficient evidence to prosecute Dzhokhar for murder and mayhem, he should and can be prosecuted
exclusively by the Commonwealth of Massachusetts.
Accordingly, amicus urges that the indictment now
pending should be dismissed, and the conviction of her
nephew Dzhokhar Tsarnaev of charges under several
acts of Congress should be vacated.

App. 2
2. The actual innocence of the accused:
Laying aside misgivings of amicus and many others
about of the “official” scenario concerning this case, as
broadcast to the world by the government and mainstream news media of the United States, evidence
generated by the Federal Bureau of Investigation (FBI), confirmed on the judicial record of
this cause, and clarified by the indictment, or
suitable for judicial notice under Rule 201(b) of
the Federal Rules of Evidence, conclusively
proves that Dzhokhar Tsarnaev cannot be guilty
of the crimes charged in this prosecution. .
The formal indictment against Dzhokhar Tsarnaev
was returned on June 27, 2013. The document is 74
pages long, and accuses Mr. Tsarnaev (hereinafter
called Dzhokhar) of heinous crimes, including many
counts punishable by death. The central event for
which Dzhokhar is alleged to have been responsible,
according to the indictment, took place on Boylston
Street, in front of the Forum Restaurant, near the finish line of the Boston marathon on April 15, 2013. The
most important paragraphs of the indictment are numbered 6, 7, and 24 (including several other paragraphs
repeating expressly or by implication the substance
thereof ). Paragraphs 6-7, read in themselves and in
context, state that, acting in concert with his (now
deceased) brother, Dzhokhar set down on the sidewalk and detonated one of two “black backpacks”
which contained “improvised explosive devices,”
these “constructed from pressure cookers, low
explosive power, shrapnel, adhesive, and other

App. 3
materials.” Paragraph 24 clarifies that the black
backpack carried, and containing the pressurecooker bomb allegedly detonated by Dzhokhar,
was placed in front of the Forum Restaurant and was
associated with the second explosion. The indictment says in paragraph 6 that both bombs exploded at
about 2:49 in the afternoon (Eastern time), and that
the bombs Dzhokhar and his brother placed and detonated each killed at least one person, and wounded
scores of others.
On the morning after the explosions, i. e., on April
16, 2013, Richard DesLauriers, special agent in charge
of the FBI in Boston, made a public statement at a
press conference, which is published in printed form on
the FBI website and in the news media concerning the
facts later set forth in the indictment. Mr. DesLauriers
said, as paragraphs 6-7 of the indictment substantially
confirm,
“ . . . this morning, it was determined that
both of the explosives were placed in a darkcolored nylon bag or backpack. The bag
would have been heavy, because of the components believed to be in it.
“ . . . we are asking that the public remain
alert, and to alert us to the following activity
. . . someone who appeared to be carrying an
unusually heavy bag yesterday around the
time of the blasts and in the vicinity of the
blasts.”
The FBI also published on April 16, 2013, a crime
lab photo of a bomb fragment found after the

App. 4
explosions. This photo is reproduced as Tsarnaeva exhibit 1 in the appendix hereof, and is believed proper
for judicial notice.
From this bomb fragment, the FBI crime lab was
able to reconstruct the size, shape, and type of pressure cookers, as was reported on information published by the FBI to the nation on ABC News Nightline
on April 16, 2013. A still-frame, taken from (about
01:39-01:54) of this ABC television report, is reproduced as Tsarnaeva exhibit 2 in the appendix hereof,
and is offered for judicial notice. A larger segment of
this ABC Nightline News report (at about 01:31-02:14)
elaborates facts set forth in paragraphs 6-7 of the indictment, including reference to three of the four exhibits reproduced in the appendix hereof. Each of the
pressure cookers in question was a Fagor, 6-quart
model, marketed in or near Boston and elsewhere in
the United States by Macey’s. Its external dimensions
are probably about 8½ inches in height, including
cover, and about 9 inches in diameter. Stripped of hard
plastic handles and filled with nails, bee bees, and
other such metal, then prepared as a bomb, it would
cause a bag carrying it to be, as observed by the FBI
chief in Boston during his press conference on April 16,
2013, “unusually heavy.”
Again on April 16, 2013, the FBI published a crime
lab photo, here reproduced as Tsarnaeva exhibit 3 in
the appendix hereof, and showing a blown-out backpack which is said to have contained one of the
bombs, – a black nylon bag with a characteristic
white rectangle marking about 3 by 1½ inches more

App. 5
or less as it appeared following the explosions the day
before. This photo pictures the “dark colored nylon bag
or backpack” which Mr. DesLauriers described in his
press conference on the day after the explosions when
he described what was carried by the guilty parties. It
was one of the “black backpacks” referenced in paragraph 7 of the indictment. It is pictured in prosecution
exhibit 26 which was introduced on the second day of
the trial in this cause (day 28 on the transcript, March
5, 2015), showing that the bag or backpack in question
was found on the street near the post box in front of
the Forum Restaurant on Boylston Street, and, as previously noted, was associated with the second explosion on April 15, 2013, which, in paragraph 24 of the
indictment, Dzhokhar is alleged to have detonated.
This general impression is confirmed by defense exhibit 3090, showing a backpack with black exterior or
covering, and introduced on the sixteenth day of the
trial (day 42 on the transcript, March 31, 2015). Tsarnaeva exhibit 3 is also suitable for judicial notice.
On April 18, 2013, the FBI published a 29-second
street video claimed to have been taken from Whiskey’s Steak House on Boylston Street at about
02:37-38 o’clock in the afternoon (Eastern time), only
minutes before the explosions on April 15, 2013. It definitively settles the principal question raised by the
indictment and the plea of not guilty interposed
against it. Part of this video is tucked into prosecution
exhibit 22 introduced on the third day of the trial in
this cause (day 29 on the transcript, March 9, 2015).
From this street video, three still-frame photos have

App. 6
been extracted. Two of these still-frame photos were
published by the FBI on April 18, 2013, on posters
which were used to identify suspects. All three photos
were published by CNN and the Associated Press on
April 19, 2013. The third still-frame photo from this
video is most telling, and is reproduced as Tsarnaeva
exhibit 4 in the appendix hereof. As already noted,
the FBI and the indictment have together affirmed that the culprits who detonated these explosions were carrying large, unusually heavy,
black backpacks concealing pressure-cooker
bombs; but, the third still-frame photo from the
Whiskey’s Steak House video reproduced as
Tsarnaeva exhibit 4, and drawn from a street
video already used by the FBI to identify the suspects and acknowledged by the government in
this prosecution, shows unmistakably that,
shortly before the explosions, Dzhokhar was carrying a small-size, white* backpack over his
right shoulder the same light in weight, not
heavy laden, and displaying no sagging or bulging as would normally be evident if the bag identified contained a pressure-cooker bomb of the
size and weight which the FBI has described.
Dzhokhar is not guilty of carrying and detonating a pressure-cooker bomb, as charged in the indictment, as is literally as obvious as the difference
between black and white. There were and remain other
* For all practical purposes and to the naked eye, the color is
white, although technical computer analysis suggests a very whitish shade of gray.

App. 7
suspects whose identities have been credibly suggested. See, e. g., Toni Cartalucci, Land Destroyer Report, April 19, 2013 (illustrated commentary entitled
“‘Contractors’ Stood Near Bomb, Left Before Detonation.”). But here it is enough to reflect on the comment
of Lord Acton that “historic responsibility has to
make up for the want of legal responsibility.” – J.
Rufus Fears, Selected Writings of Lord Acton, Liberty
Fund, Indianapolis, 1985, Vol. 2, p. 383 (Letter to Mandell Creighton, April 5, 1887). Whatever is done in judicial proceedings, history will judge this case, as
surely as history has judged other significant cases.
3. The grievance of amicus: It is impossible
that federal prosecutors and counsel for the accused
did not know of the exculpatory evidence which has
just been identified and illustrated. Yet federal prosecutors went head without probable cause, as if
decisive evidence of actual innocence, impossible to ignore in a diligent study of this case, did
not exist, as is wholly unacceptable in light of Brady
v. Maryland, 373 U. S. 83 at 86-87 (1963).
Moreover, in her opening statement at trial on
March 4, 2015, as reflected in the fourth paragraph of
the transcript of her comments, court-appointed
counsel for the accused forcefully insisted that
Dzhokhar was guilty of capital felonies, as is positively disproved by evidence generated by the
FBI, reinforced by the indictment itself. She said,
“The government and the defense will agree
about many things that happened during the

App. 8
week of April 15th, 2013. On Marathon Monday, Tamerlan Tsarnaev walked down Boylston
Street with a backpack on his back, carrying
a pressure cooker bomb, and put it down in
front of Marathon Sports near the finish line
of the Marathon. Jahar [i. e., Dzhokhar] Tsarnaev walked down Boylston Street with a
backpack on his back carrying a pressure
cooker bomb and placed it next to a tree in
front of the Forum Restaurant. The explosions
extinguished three lives.”
And in her summation to the jury on April 6, 2015,
as the transcript shows, court-appointed counsel
for the accused said nothing of the exculpatory
evidence in this case. She did not even ask for a
verdict of not guilty. She could hardly have done
more to promote a conviction and the severest sentence
possible, even though the third still-frame photo from
the video at Whiskey’s Steak House, reproduced as
Tsarnaeva exhibit 4, showed Dzhokhar carrying a
white backpack, as alone was enough to defeat the
indictment insofar as paragraph 7 thereof averred that
the accused and his brother committed the principal
acts of wrongdoing by carrying and setting down black
backpacks. Such misconduct is altogether unacceptable in light of Strickland v. Washington, 446 U. S. 668
at 687-688 (1984).
The misconduct of which amicus complains served
to conceal decisive exculpatory evidence by legerdemain. Amicus urges not only that the death penalty
may not be imposed in this case, for all three opinions
in Herrera v. Collins, 506 U. S. 390 (1993), allow that

App. 9
the death penalty may not be constitutionally imposed
where the accused is demonstrably innocent, but that
sua sponte this court order a new trial with directions
that new counsel for the accused be appointed, motivated to provide an authentic defense for Dzhokhar.
4. The corpus delicti: Paragraph 10 of the indictment recites a statement in the nature of a confession by Dzhokhar written on the inner walls of a boat
in Watertown. But with respect to any and all evidence
offered or treated as suggesting an extrajudicial admission of guilt in this case, amicus cites the penetrating observation by Sir William Blackstone in his
Commentaries on the Laws of England, Edward Christian, London, 1765, Book IV, p. 357: “[E]ven in cases
of felony at common law, [confessions] are the
weakest and most suspicious of all testimony,
ever liable to be obtained by artifice, false hopes,
promises of favour, or menaces, seldom remembered accurately, or reported with due precision, and incapable in their nature of being
disproved by other negative evidence.” Amicus
and countless others suspect that the alleged confession in the boat was staged as artifice to suit the government’s case, and not authentic. But she stands on
ancient wisdom which casts doubt on all extrajudicial
confessions without adequate safeguards, including
the rule that an extrajudicial confession is insufficient
to convict, unless the corpus delicti be sufficiently
proved up. The rule is defined with various degrees of
rigor from jurisdiction to jurisdiction. In federal courts,
in any event, the corroboration required to sustain a

App. 10
confession or statement in the nature of a confession
need only be independent, substantial, and reveal the
words in question to be reasonably trustworthy, as
appears, e. g., in Opper v. United States, 348 U. S. 84
(1954).
If such be the law here applicable, the required
corroboration in this case must include evidence showing that Dzhokhar actually carried a large, heavy,
black backpack on Boylston Street before the explosions on the afternoon on April 15, 2013, as claimed by
the FBI and alleged in the indictment. Tsarnaeva exhibit 4, a product of investigation by the FBI, shows
plainly that Dzhokhar did no such thing, hence no required corroboration has been established
5. Closing remarks: The views here expressed are not unique, but shared by good Americans,
and others the world over. The undersigned and her
sister Malkan are prepared to testify as expressed in
the affidavit filed in support of the motion for leave to
file a submission as amicus curiae. This argument is
Respectfully submitted,
Dated: May 15, 2015

/s/ Maret Tsarnaeva
[Russian script]
MARET TSARNAEVA, Pro se
Zhigulevskaya Str. 7, Apt. 4
364000 Grozny, Chechen
Republic, RF
Telephone:
011-7-938-899-1671
E-mail:
marettsar@gmail.com

App. 11
Of counsel:
John Remington Graham of the Minnesota Bar
(#3664X)
180 Haut de la Paroisse
St-Agapit, Quebec G0S 1Z0 Canada
Telephone: 418-888-5049
E-mail: jrgraham@novicomfusion.com

CERTIFICATE OF COMPLIANCE
The undersigned certifies that this submission is
consistent with the rules of this Court, that it is prepared in 14-point Times New Roman font, and that the
bare text thereof consists of 2,331 words.
Dated: May 15, 2015

/s/ Maret Tsarnaeva
[Russian script]
Maret Tsarnaeva

App. 12
APPENDIX
TSARNAEVA EXHIBIT 1

TSARNAEVA EXHIBIT 2

App. 13
TSARNAEVA EXHIBIT 3

TSARNAEVA EXHIBIT 4

